 Evaluation of the SEC Encryption
 Program




                                REDACTED PUBLIC VERSION
                                                          March 26, 2010
                                                          Report No. 476
Prepared by C5i Federal, Inc.
                                                    UNITED STATES
                                   SECURITIES AND EXCHANGE COMMISSION
                                               WASHINGTON, D.C.     20S49

      O .... lc:E 0 ..
lH.,.EC:TOR GEHIi:llIAL


                                             MEMORANDUM
                                                    March 26, 2010

              To:                Charles Boucher, Director, Office of Information Technology
              From:              H. David Kotz, Inspector General, Office of Inspector General (OIG >f!  OJ.;-
              Subject:           Evaluation of the SEC Encryption Program, Report No. 476

              This memorandum transmits the U.S. Securities and Exchange Commission,
              OIG's final report detailing the results of our evaluation of the Commission's
              encryption program.                                                         .

              Based on the written comments that were received and our assessment of the
              comments, we revised the report accordingly. This report contains three
              recommendations. The Office of Information Technology (OIT) did not concur
              with recommendations 1 and 2 and concurred with recommendation 3. The OIT's
              full comments to this report are included in the appendices.

              Within the next 45 days. please provide OIG with a written corrective action plan
              that is designed to address the recommendations. The corrective action plan
              should include information such as the responsible official/point of contact, time
              frames for completing the required actions, milestone dates identifying how you
              will address the recommendations cited in this report, etc.

             Should you have any questions regarding this report, please do not hesitate to
             contact me. We appreciate the courtesy and cooperation that you and your staff
             extended to our contractor and auditor.

             Attachment



             cc:          Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                          Diego Ruiz, Executive Director, Office of the Executive Director
                          Lewis W. Walker, Deputy Director and Chief Technology Officer, Office of
                            Information Technology
                          Todd Scharf, Chief Information Security Officer, Office of Information
                            Technology




                Evaluation of the SEC Encryption Program                                March 26, 2010
                Report No. 476
                                                           Page i
Evaluation of the SEC Encryption Program

                           Executive Summary
In August 2009, the U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG), contracted with C5i Federal,
Inc. (C5i) to assist with the completion and coordination of the OIG’s input to the
Commission’s response to Office of Management and Budget (OMB)
Memorandum M-09-29. OMB Memorandum M-09-29 provides instructions and a
template for meeting the fiscal year 2009 reporting requirements under the
Federal Information Security Management Act of 2002 (FISMA), Title III, Pub. L.
No. 107-347. C5i’s principal tasks included completing the OIG’s portion of the
template and reporting the results in an executive report. In addition to
coordinating the OIG response to OMB, we also examined the Commission’s
implementation of the encryption program and privacy processes and
technologies.

C5i commenced its FISMA work for the OIG in September 2009, when the final
FISMA questionnaires were promulgated by OMB. C5i completed the OIG’s
portion of the FISMA reporting template (Section C) and conducted an evaluation
of the SEC’s encryption program. This report documents the results of C5i’s
evaluation of the Commission’s encryption program.

Overall, we found that the SEC has a comprehensive encryption program.
However, we identified two findings related to mobile devices and portable media
that the Office of Information Technology (OIT) should address as follows:

   •   Mobile devices such as |||||||||||||||||||||| have not been properly encrypted
       throughout the SEC headquarters divisions/offices and regional offices.

   •   OIT has not implemented policy requiring the encryption of portable media
       for all Commission headquarters divisions/offices and regional offices.

OIT should take steps to ensure the rollout of new ||||||||||||||||||| handheld devices
with forced encryption is completed on schedule. Until the rollout is complete,
the SEC runs the risk of confidential or privacy-protected information being
exposed. Further, OIT’s current policy for encryption is optional, and two
regional offices do not require its personnel to encrypt data that is copied to or
contained on portable media. We determined that the current policy should be
revised to require all removable media to be encrypted. Allowing this policy to be
optional exposes the SEC to potential breaches in Personally Identifying
Information (PII) and sensitive data leakage/loss. The best way to protect the
Commission’s data is to ensure it is encrypted.


Evaluation of the SEC Encryption Program                                  March 26, 2010
Report No. 476
                                           Page ii
Objective. The objective of this evaluation was to examine the SEC’s
implementation of encryption technologies and processes.

Recommendations. The OIT should revise its policy and require all portable
media to be encrypted. Allowing the policy to be optional exposes the
Commission to potential breaches in PII and sensitive data leakage/loss. The
only way to protect the data is to encrypt all the data. The protection of data
cannot be optional. Therefore, OIT should eliminate the option for offices to
determine whether or not they will encrypt portable media such as thumb drives,
CD/DVDs, etc. Finally, in the future, OIT should encrypt all PDA/|||||||||||||||||||
|||||||||||||| to ensure the protection of any confidential/proprietary/privacy
information that may be contained on these devices.




Evaluation of the SEC Encryption Program                               March 26, 2010
Report No. 476
                                           Page iii
TABLE OF CONTENTS

Executive Summary ................................................................................................ ii

Table of Contents ................................................................................................... iv

Results and Recommendations............................................................................. 1
     Background ........................................................................................................ 1
     Results ............................................................................................................... 1
     Recommendation 1 ............................................................................................ 3
     Recommendation 2 ............................................................................................ 4
     Recommendation 3 ............................................................................................ 5

Appendices
    Appendix I: Acronyms. ...................................................................................... 6
    Appendix II: Scope and Methodology................................................................. 7
    Appendix III Criteria............................................................................................ 9
    Appendix IV: List of Recommendations ........................................................... 12
    Appendix V: Management Comments.............................................................. 13
    Appendix VI: OIG Response to Management’s Comments ............................. 14




Evaluation of the SEC Encryption Program                                                           March 26, 2010
Report No. 476
                                                     Page iv
               Results and Recommendations

Background
Encryption is the process of transforming information (referred to as plaintext)
using an algorithm (called cipher) to make it unreadable to anyone except those
possessing special knowledge, usually referred to as a key. The result of the
process is encrypted information (referred to as ciphertext). The reverse process
of encryption is called decryption; information is decrypted to make the encrypted
information readable again (i.e., to make it unencrypted).

Encryption has long been used by the military and governments to facilitate
secret communication, but is now commonly used in protecting information in
civilian systems and in the private sector. Encryption may be used to protect
data "at rest" (e.g., files on computers, portable media 1 and storage devices), as
well as data in transit (e.g., e-mail). Encrypting data at rest helps protect it in the
event physical security measures fail.

As is true with password strength – the more complex the password, the more
difficult to guess – the stronger the encryption, the safer the data.

Forced encryption is the best posture for any organization to take, as it removes
the element of human error. All laptops, e-mail, and portable media should be
encrypted to ensure that confidential/sensitive data is not compromised, and staff
should always ensure that any data that is being copied to portable media be
encrypted.

Results
As part of the fiscal year (FY) 2009 Federal Information Security Management
Act (FISMA) evaluation of the SEC, C5i Federal, Inc. (C5i) conducted an
evaluation of the U.S. Securities and Exchange Commission (SEC or
Commission) encryption program. C5i conducted interviews with Office of
Information Technology (OIT) personnel, reviewed policies and procedures, and
analyzed documents and documentation pertaining to the products the SEC uses
for encryption. To formulate the OIG response to the OMB questionnaire and to
support the findings in connection with this evaluation, we reviewed incidents that
1
 Portable media is a device that is capable of storing and playing digital media.
Evaluation of the SEC Encryption Program                                            March 26, 2010
Report No. 476
                                             Page 1
occurred within the Commission involving the loss of unencrypted data and
unencrypted portable media.

We found the SEC has developed and implemented the policies and procedures
surrounding encryption technology and processes. The Draft SEC Encryption
policy encompasses the recommendations and best practices of National
Institute of Standards and Technology (NIST) 800-53, Recommended Security
Controls for Federal Information Systems, the Office of Management and Budget
(OMB) M-06-16, Protection of Sensitive Agency Information, OMB M-07-16,
Safeguarding Against and Responding to the Breach of Personally Identifiable
Information, and SEC Regulation (SECR) 23-2a, Safeguarding Non-Public
Information.

All tools either currently being used or being considered for use by the SEC for
the purposes of encryption must be compliant with Federal Information
Processing Standards (FIPS) 140-2 and FIPS 200. What follows is a description
of the encryption tools currently being used by the SEC.

   •   |||||||||||||||||| ||||| |||||| is used for encryption of SEC workstations (desktops
       and laptops), and is also used for encryption of portable media (USB
       devices, CDs, etc.). ||||||||||||||| ||||| |||||| has enforceable mandatory access
       control and strong encryption. User credentials and confidential data
       remain private. It enables the SEC to enforce its security policy, while
       providing a security solution that is easy for employees to use and does
       not adversely affect equipment performance. However, the encryption
       policy for portable media is not followed agency-wide. Additional details
       about the portable media encryption can be found in the findings section
       of this document.

   •   E-mail in transit is encrypted using ||||||||||||||| This is an appliance that sits
       on the edge of the network and inspects all outbound e-mail messages to
       ensure they comply with SEC policies. It provides full-content scanning of
       the message body and attachments, and can encrypt, route, block or
       brand outbound e-mail based on customization by the OIT.

   •   ||||||||||||||||||| – the SEC uses the vendor recommended/provided software
       for encryption of ||||||||||||||||||| ||||||||||||||. Data in transit between the
       ||||||||||||||||||| ||||||||||| and ||||||| |||||||||||||||||| ||| ||||||||||||| is encrypted; however,
       not all of the handheld devices are encrypted. Additional details regarding
       ||||||||||||||||||| encryption can be found in the findings section of this
       document.

Overall, the SEC has a comprehensive encryption program that uses best in
breed technologies and employs industry best practices to safeguard
Commissions information. However, there are some areas of concern, which are
discussed in detail below.
Evaluation of the SEC Encryption Program                                                    March 26, 2010
Report No. 476
                                                 Page 2
Encryption of Portable Media

In September 2008, the OIT Chief Technology Officer sent a memorandum to
SEC Division/Office Directors and Regional Directors, outlining the SEC’s
portable media encryption requirements. The memorandum provided Directors
with two options for encryption as follows:

         (1) Configuration 1: Automatically encrypts data stored on portable media
             when the media is connected to SEC owned equipment; or
         (2) Configuration 2: Gives SEC personnel the option of storing data on
             portable media without encrypting the data when the media is
             connected to SEC-owned equipment, if the user determines the stored
             data does not include non-public data or Personally Identifiable
             Information (PII).

Portable media includes, but is not limited to, USB drives, readable and/or
writeable CDs, DVDs, and external hard drives. All SEC Directors elected to
adopt Configuration 1, except two regional offices that opted to adopt
Configuration 2. Configuration 2 essentially relies on the individual’s judgment
whether or not to encrypt data that is copied to or contained on portable media.

An encryption program cannot be optional in order for it to be effective. Human
error is a significant contributor to security incidents and allowing encryption to be
optional greatly increases the likelihood that data is compromised. While people
are usually very familiar with documents on their computers, we believe that it is
not possible for most people to remember for certain the information that is
contained in a particular document. We found that the Division/Offices are given
the option of whether they would like to encrypt their portable media. In our view,
allowing SEC Division/Offices the option to encrypt removable media could result
in the loss or exposure of sensitive date and/or PII. For example, in 2009 there
were two incidents where information stored on portable media was lost. In
Incident 138, an external device was lost that had PII stored on it. In Incident
143, a |||||||||| USB drive was lost. Although ||||||||||s are not necessarily
considered writable media, 2 because SEC personnel use them to attain remote
access to their desktops, the incident report indicates they have a writable
partition that is not encrypted.

The only way to protect the data is to encrypt all the data. Allowing the policy to
be optional exposes the Commission to potential breaches in PII and sensitive
data leakage/loss. Therefore, we recommend that OIT require all portable media
be encrypted. Implementing this recommendation will eliminate the option given
to offices to select whether or not they want to encrypt portable media, because
the protection of data cannot be optional.

2
 NIST defines writeable media as information system media that includes both digital media (e.g., diskettes,
magnetic tapes, external/removable hard drives, flash/thumb drives, compact disks, digital video disks) and
non-digital media (e.g., paper, microfilm).
Evaluation of the SEC Encryption Program                                                   March 26, 2010
Report No. 476
                                                 Page 3
        Recommendation 1:

        The Office of Information Technology should revise its policy and require
        “all” portable media be encrypted.

        Management Comments. Nonconcur. See Appendix V for
        management’s full comments.

        OIG Analysis. OIG disagrees with the opt-out option in the policy that
        allows division and office heads the ability to determine whether or not to
        encrypt data on portable media because encryption is a necessary
        strategy for managing the risk associated with utilizing portable media.
        We would request that OIT reconsider its position. See Appendix VI for
        the OIG’s full response to management’s comments.

        Recommendation 2:

        Office of Information Technology should eliminate the option for divisions
        and offices to determine whether or not they will encrypt portable media
        such as thumb drives, CD/DVDs, etc.

        Management Comments. Nonconcur. See Appendix V for
        management’s full comments.

        OIG Analysis. As indicated in Recommendation 1, OIG disagrees with
        the option of allowing division and office heads the ability to determine
        whether on not to encrypt data on portable media because encryption is a
        necessary strategy for managing the risk associated with utilizing portable
        media. We would request that OIT reconsider its position. See Appendix
        VI for the OIG’s full response to management’s comments.


Encryption of Handheld Devices |||||||||||||||||||||

As part of our review of the encryption program, we addressed the encryption of
handheld devices. While we found that data in transit between the enterprise
server and the ||||||| ||||||||||| is encrypted, the encryption of ||||||||||||||||||| |||||||||||||| is
not enforced.

||||||||||||||||||||||, as well as other personal digital assistant (PDA) handheld devices,
contain a huge amount of information such as e-mail, e-mail addresses, e-mail
attachments, and user information. Unencrypted PDA devices can cause a
significant security impact if they are lost or stolen, because sensitive and/or
confidential information on these devices can be exposed if they are not
encrypted, which could bring possible damage to the Commission if non-public
information is disclosed to the public.

Evaluation of the SEC Encryption Program                                                March 26, 2010
Report No. 476
                                                Page 4
We found in 2009 the SEC had 15 security incidents involving lost or stolen
||||||||||||||||||| |||||||||||||| that were not encrypted. For example, in June 2009 a
security incident occurred when a stolen, unencrypted ||||||||||||||||||| was used to
send a spoofed e-mail to the SEC Chairman, members of the press, and other
media communities.

In July 2009, the SEC began replacing its ||||||||||||||||||| |||||||||||||| with updated
devices with forced encryption that cannot be circumvented or disabled. As of
October 15, 2009, 638 of 1,192 ||||||||||||||||||||| had been replaced. OIT informed
us that by the end of December 2009, it planned to replace all |||||||||||||||||||
|||||||||||||| with encryption that cannot be circumvented or disabled. However, we
have not received any documentation to confirm whether all ||||||||||||||||||| ||||||||||||||
were replaced and have the needed encryption. We recommend that in the
future, all devices are encrypted.

       Recommendation 3:

       In the future, the Office of Information Technology should encrypt all
       PDA/||||||||||||||||||| |||||||||||||| to ensure the protection of
       confidential/proprietary/privacy information that may be contained on the
       devices.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.




Evaluation of the SEC Encryption Program                                       March 26, 2010
Report No. 476
                                           Page 5
                                                                        Appendix I

                                    Acronyms

        CSIRT                     Computer Security Incident Response Team
        FIPS                      Federal Information Processing Standards
        FISMA                     Federal Information Systems Management Act
        NIST                      National Institute of Standards and Technology
        OIG                       Office of the Inspector General
        OIT                       Office of Information Technology
        OMB                       Office of Management and Budget
        PII                       Personally Identifying Information
        SEC or Commission Securities and Exchange Commission




Evaluation of the SEC Encryption Program                               March 26, 2010
Report No. 476
                                           Page 6
                                                                     Appendix II


                          Scope and Methodology

This evaluation was not conducted in accordance with government auditing
standards.

Scope. The scope of this evaluation covers fiscal years 2008 through 2009.

Methodology. To meet the evaluation objectives to examine the SEC’s
implementation of encryption technologies and processes, C5i conducted
interviews with key personnel, made independent observations, reviewed
established polices, and obtained and examined supporting documentation.
Interviews with key personnel included systems owners, business line managers,
OIT representatives, and OIG personnel. The personnel were interviewed
regarding the issues germane to completing the evaluation of the SEC encryption
program. Interview discussion areas included:

    •   SEC encryption polices and procedures;
    •   Encryption of computers – desktop, laptops, handheld devices such as
        Blackberries, and portable/removable media; and
    •   Incidents involving unencrypted portable media.

Support documents SEC officials provided included system artifacts and
documentation relating to the various SEC systems and issues that were
identified.

Internal Controls. We reviewed the existing controls that were considered
significant for FISMA and within the context of the encryption program and our
objectives.

Prior Audit Coverage. We conducted an assessment of the Commission’s
FISMA program in 2008. The review looked at the FISMA major security areas
as well as performed an assessment of two of the Agencies information systems;
the Complaints/Tips/Referrals, and the Office of Compliance Inspections and
Examinations, Adviser Surveillance Intelligence System applications. The report
contained three recommendations and revealed that there were no significant
issues with the systems however we found some problems with the overall
security program as it related to the Commission completing security control and
contingency testing for some systems. We also identified a problem with the
Commission’s implementation of the requirements for Federal Core Desktop
Configuration.



Evaluation of the SEC Encryption Program                             March 26, 2010
Report No. 476
                                           Page 7
                                                                     Appendix III


                                       Criteria

OMB Memorandum M-09-29, Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. This memorandum
provides instructions for meeting agency FY 2009 reporting requirements under
the Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. It also includes reporting instructions for agency privacy management
programs.

OMB Memorandum M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information (May 22, 2007). This memorandum
requires agencies to develop and implement a breach5 notification policy. This is
a responsibility shared by officials accountable for administering operational and
privacy and security programs, legal counsel, Agencies’ Inspectors General and
other law enforcement, and public and legislative affairs. It is also a function of
applicable laws, such as the Federal Information Security Management Act of
2002, 2 and the Privacy Act of 1974.

OMB Memorandum M-06-19, Reporting Incidents Involving Personally
Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments (July 12, 2006). This memorandum provides
updated guidance on the reporting of security incidents involving personally
identifiable information and to remind you of existing requirements, and explain
new requirements your agency will need to provide addressing security and
privacy in your fiscal year 2009 budget submissions for information technology.

OMB Memorandum M-06-16, Protection of Sensitive Agency Information (June
23, 2006). This memorandum recommends a number of actions necessary to
protect sensitive information.

OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information
(May 22, 2006). This memorandum reemphasizes agency responsibilities under
law and policy to appropriately safeguard sensitive personally identifiable
information and to train employees on their responsibilities.

OMB Memorandum M-03-22, Guidance for Implementing Privacy Provisions of
the E-Government Act of 2002 (September 30, 2003). This memorandum
provides information to agencies on implementing the privacy provisions of the E-
Government Act of 2002, which was signed by the President on December 17,
2002 and became effective on April 17, 2003.



Evaluation of the SEC Encryption Program                             March 26, 2010
Report No. 476
                                           Page 8
                                                                      Appendix III

NIST SP 800-72, Guidelines on PDA Forensics. This guide provides an in-depth
look into PDAs and explaining the technologies involved and their relationship to
forensic procedures. It covers three families of devices – Pocket PC, Palm OS,
and Linux-based PDAs – and the characteristics of their associated operating
system.

NIST SP 800-83, Guide to Malware Incident Prevention and Handling. This
publication provides recommendations for improving an organizations malware
incident prevention measures. It also gives extensive recommendations for
enhancing an organizations existing incident response capability so that it is
better prepared to handle malware incidents, particularly widespread ones. The
recommendations address several major forms of malware, including viruses,
worms, Trojan horses, malicious mobile code, blended attacks, spyware tracking
cookies, and attacker tools such as backdoors and rootkits. The
recommendations encompass various transmission mechanisms, including
network services (e.g., e-mail, Web browsing, file sharing) and removable media.

NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident
Response. This guide provides detailed information on establishing a forensic
capability, including the development of policies and procedures. Its focus is
primarily on using forensic techniques to assist with computer security incident
response, but much of the material is also applicable to other situations.

NIST SP 800-101, Guidelines on Cell Phone Forensics. The objective of the
guide is twofold: to help organizations evolve appropriate policies and
procedures for dealing with cell phones, and to prepare forensic specialists to
contend with new circumstances involving cell phones, when they arise.

CMU/SEI-2003-HB-001, Organizational Models For Computer Security Incident
Response Teams. This handbook describes different organizational models for
implementing incident handling capabilities, including each model’s advantages
and disadvantages and the kinds of incident management services that best fit
with it. An earlier SEI publication, the Handbook for Computer Security Incident
Response Teams (CSIRT) (CMU/SEI-2003-HB-002), provided the baselines for
establishing incident response capabilities.

CMU/SEI-20030TR-001, State of the Practice of Computer Security Incident
Response Teams (CSIRT). This report provides an objective study of the state
of the practice of incident response, based on information about how CSIRTs
around the world are operating. It covers CSIRT services, projects, processes,
structures, and literature, as well as training, legal, and operational issues.




Evaluation of the SEC Encryption Program                             March 26, 2010
Report No. 476
                                           Page 9
                                                                       Appendix III

CMU/SEI-2003-HB-002, Handbook for Computer Security Incident Response
Teams. This report proposes an intrusion-aware design model called trustworthy
refinement through intrusion-aware design (TRIAD). TRIAD helps information
system decision makers formulate and maintain a coherent, justifiable, and
affordable survivability strategy that addresses mission-compromising threats for
their organization.

CMU/SEI-2004-TR-015, Defining Incident Management Processes for CSIRTs.
This report presents a prototype best practice model for performing incident
management processes and functions. It defines the model through five high-
level incident management processes: Prepare/Sustain/Improve, Protect
Infrastructure, Detect Events, Triage Events, and Respond. Workflow diagrams
and descriptions are provided for each of these processes.

CMU/SEI-2005-HB-001, First Responders Guide to Computer Forensics. This
handbook is for technical staff members charged with administering and securing
information systems and networks. It targets a critical training gap in the fields of
information security, computer forensics, and incident response: performing basic
forensic data collection.

SAND98-8667, A Common Language for Computer Security Incidents. This
paper presents the results of a project to develop a common language for
computer security incidents. This project results from cooperation between the
Security and Networking Research Group at the Sandia National Laboratories,
Livermore, CA, and the CERT® Coordination Center at Carnegie Mellon
University, Pittsburgh, PA.




Evaluation of the SEC Encryption Program                               March 26, 2010
Report No. 476
                                           Page 10
                                                                      Appendix IV


                      List of Recommendations

Recommendation 1:

The Office of Information Technology should revise its policy and require that “all”
portable media be encrypted.

Recommendation 2:

Office of Information Technology should eliminate the option for divisions and
offices to select whether or not they will encrypt portable media, i.e., thumb
drives, CD/DVDs, etc.

Recommendation 3:

In the future, the Office of Information Technology should encrypt all
PDA/||||||||||||||||||| |||||||||||||| to ensure the protection of
confidential/proprietary/privacy information that may be contained on the devices.




Evaluation of the SEC Encryption Program                              March 26, 2010
Report No. 476
                                           Page 11
                                                                                Appendix V


                                  Management Comments




                                                   Memorandum

Date:            March 11,2010

To:              David Kotz, Inspector General. OIG
                 Jacqueline Wilson, Assistant Inspector General, O ~~

From:            Charles Boucher. Chief Information Officer. OIT (----"--. ('.({""ctA-@--

Subject:         Management Response to OIG Report 476, Evaluation of the SEC Encryption
                 Program                             -


Thank you for the opportunity to comment on the recommendations in the draft "Evaluation of
the SEC Encryption Program" report. The Office of Information Technology (OIT) takes
seriously our obligation to properly safeguard the SEC's information technology assets. The
protection of sensitive non-public data and Personally Identifiable Information (PI I) is of the
utmost importance and the OIT has implemented strong measures to ensure the safekeeping
of such data. These measures include:

        •   Encrypting the hard drive of all SEC laptop computers,
        •   Encrypting all SEC Blackberry PDA devices.
        •   Equipping all SEC workstations with encryption software to allow for the encryption
            of data placed on portable media from an SEC workstation,
        •   Implementing an Encryption Policy that requires all sensitive non-public or PII data
            be encrypted,
        •   Providing annual privacy and security training which covers the responsibilities SEC
            staff have regarding the protection of sensitive non-public data and PII. and
        •   Sending out periodic reminders to all SEC staff on their responsibilities regarding
            safeguarding data.

The encryption policy of the SEC is that all sensitive non-public or PII data must be encrypted.
To ensure that all employees can comply with this policy. encryption software has been
installed on all SEC workstations.  Our policy is consistent with the Office of Management and
Budget (OMB) memorandum M-06-16. which recommends that departments and agencies
encrypt all data on mobile computer/devices which carry agency data, unless the data is
determined to be non-sensitive.

The SEC's encryption policy also provides that each division or office head within the SEC will
determine which of two implementation methods to employ for all employees within the
division or office. If the division or office chooses a "mandatory" method, then the encryption
software will always automatically encrypt all portable media that has data placed on it from
any SEC Workstation within the division or office. If the division or office chooses an "optional"
method, then the encryption software will instead provide the user with a prompt that 1)

                                                       1




        Evaluation of the SEC Encryption Program                                 March 26, 2010
        Report No. 476
                                                     Page 12
                                                                                    Appendix V




reminds the user that all sensitive non-public or PII data must be encrypted when placed on
portable media and 2) allows them to determine and select whether the data being placed on
the portable media requires encryption. Additionally, when the portable media is encrypted
(e.g. if any data reqUires encryption), then all data on that portable media is encrypted.
Therefore. non-sensitive data on the same media as sensitive data would be encrypted.

Our policy reflects the necessity to balance the needs of the business with appropriate
safeguarding measures, and recognizes that different divisions and offices within the agency
use portable media differently. Allowing SEC leadership to choose which implementation
method best addresses the type of data their staff are handling allows for a more efficient and
effective business operation. For example, we understand that some courts - to whom our
Enforcement staff regularly provide data through portable media - require that when data is
provided on portable media that it not be encrypted.

Finally, many other financial regulatory agencies have implemented encryption on portable
media in the same manner that the SEC has. We have confirmed that both the Federal
Deposit Insurance Corporation (FDIC) and the Federal Reserve Bank (FRB) implement their
policies such that their staff determines the nature of the data and encrypts appropriately.
These agencies do not require all portable media be encrypted, and do not require any
divisions or offices to have mandatory encryption, which the SEC's policy allows for.

Recommendation 1

The Office of Information Technology should revise its policy and require   ~all~   portable media is
encrypted.

Recommendation 2:

Office of Information Technology should eliminate the option for offices to determine whether
or not they will encrypt portable media such as thumb drives, CD/DVD, etc.

Response to Recommendation 1 and Recommendation 2:

For the reasons explained above, OIT does not concur with these recommendations.

Recommendation 3:

In the future the Office of Information Technology should encrypt all PDAIBlackberry devices to
ensure the protection of confidential/proprietary/privacy information that may be contained on
the devices.

Response to Recommendation 3:

The Office of Information Technology concurs with this recommendation. OIT encrypts all
Blackberry devices.




                                                   2




      Evaluation of the SEC Encryption Program                                       March 26, 2010
      Report No. 476
                                                 Page 13
                                                                                             Appendix VI


       OIG Response to Management’s Comments

OIT did not concur with recommendations 1 and 2, but concurred with
recommendation 3. We are pleased that OIT concurred with recommendation 3,
and provide our response to OIT’s comments regarding recommendations 1 and
2 as follows.

The CIO states in the management comments that OIT’s policy to allow a
division or office to opt-out of the automatic encryption of all portable media that
has data placed on it from an SEC workstation “reflects the necessity to balance
the needs of the business with appropriate safeguarding measures.” While the
OIG understands the concern to balance the business needs of the different
offices and divisions within the SEC, as we discussed in the report, an encryption
program cannot be optional if it wishes to be effective. Human error is a
significant contributor to security incidents and allowing encryption to be optional
greatly increases the likelihood that data is compromised. In our view, the only
way to protect the data is to encrypt all of it. Allowing the policy to be optional
exposes the Commission to potential breaches in PII and sensitive data
leakage/loss. 3

Accordingly, we disagree with OIT’s comments and would request that OIT
reconsider its position and agree to eliminate the option for offices to determine
whether or not they will encrypt portable media and in the future encrypt all
PDA/blackberry devices.




3
 The fact that other agencies may also allow potential exposure to breaches in PII by not requiring that all
portable media be encrypted is not a reason that the SEC should allow itself to be vulnerable.

Evaluation of the SEC Encryption Program                                                      March 26, 2010
Report No. 476
                                                 Page 14
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

      U.S. Securities and Exchange Commission
      Office of Inspector General
      Attn: Assistant Inspector General, Audits (Audit Request/Idea)
      100 F Street, N.E.
      Washington D.C. 20549-2736

      Tel. #: 202-551-6061
      Fax #: 202-772-9265
      E-mail: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
